                                                                               i
                                                                               I




       AUDIT OF the Y2K Loan to [                                       J
                           AUDIT REPORT NO. 0-21 

                               JULY 20 2000 





This report may contain proprietary Information subject to the provisions of
18 USC 1905 and must not be released to the public or another agency without
permission of the Office of Inspector General.
                        u.s.   Small Buslna.. Administration
                                 Washington, D.C. 20416




 Date:           July 20, 2000

 To:             Elaine F. Guiney, District Director
                 Massachusetts District Office


From:
                  ~,~~
                 Robert G. Seabrooks, Assistant Inspector General
                  for Auditing

Subject:        Memorandum Audit Report-Audit of the Y2K Loan to r
                   Ex, Jj.              :I


       Attached is a copy of the subject report. The report contains one finding and
recommendation addressed to your office. Your letter dated July 12,2000, stated you
agreed with the recommendation and planned to implement corrective action.

       The recommendation is subject to review and implementation of corrective action
by your office in accordance with existing Agency procedures for audit follow-up.
Please provide your revised management response to the recommendation within 30 days
from the date of this report using the attached SBA Fonn 1824, Recommendation Action
Sheet. The SBA Fonn 1824 should be sent to:

         Audit Manager
         OIG Atlanta Field Office
         233 Peachtree Street, Office 1803
         Atlanta, Georgia 30303

        Any questions or discussions of the issues contained in this report should be
directed to Gary Duncan at (202) 205-7732.

Attachment




                                               #f!t..
                        Federal Recycling program~, Printed on   RecyCled   Paper
                               U.S. SMALL BUSINESS ADMINISTRATION 




~
       BU6'

."
•                 *
                                 OFFICE OF INSPECTOR GENERAL
                                       Washington, DC 20416

>   ~N/~T""<\'"                                                    MEMORANDUM
                                                                   AUDIT REPORT

                                                                Issue Date: July 20, 2000
                                                                 Number:     0-21


         To:           Elaine F. Guiney, District Director

                        ~hxe1ZZffice 

         From:         Robert G. Seabrooks, Assistance Inspector General
                         for Auditing

         Subject:      Memorandum Audit Report - Audit of the Y2K Loan to {:.     1::><. 4­
                                             .:J

                                            BACKGROUND

                 The Y2K Loan Program, authorized by the Small Business Year 2000 Readiness
         Act (Act) in April 1999, was established to help small businesses become Y2K compliant
         and to provide relief for business economic injury due to Y2K problems occurring after
         January 1,2000. Use of program funds included the repair and acquisition of information
         technology systems (hardware and software) and the purchase of consulting and other
         third party services and related expenses.

                Loans approved under the Y2K loan program can have an SBA guarantee of 90
         percent on loans of $100,000 or less and 85 percent on loans over $100,000. As of
         March 31, 2000, 104 loans valued at $8.1 million were approved under the Y2K program,
         with no economic injury applications received. The program ends December 31, 2000.
         This audit was done because the Act requires the OIG to periodically review a
         representative sample of Y2K loans to mitigate the risk of fraud and ensure safety and
         soundness of the program.

                 This report provides results of an audit of a Y2K loan made to c: E'><! '-I
               _                     J (borrower). The business, located in C E><· 't ::J MA, is
         a financial management software and service provider for surrounding municipalities for
         tax and fee collection and management of tax title properties. The loan, approved on e ~,y
           ~ 1999, was for upgrades to computer software and hardware to make the system Y2K
         compliant.
                           AUDIT SCOPE AND OBJECTIVE

        Loan number t       Ex, It         . ') with an SBA guarantee of 85 percent 

 was judgmentally selected and reviewed to evaluate the safety and soundness ofthe 

 nationwide Y2K loan program. Our sample selection criterion was based upon the loan 

 amount, geographical location of loan, type of loan processing, and credit report 

 information. 


         The audit objective was to determine whether Y2K loans were processed,
 disbursed, and proceeds used in accordance with the Act. For the five loans selected, we
 reviewed (I) repayment ability; (2) character and creditworthiness; (3) eligibility for the
 loan; (4) compliance with the loan authorization and law; and (5) use of proceeds. We
 conducted on-site reviews oflender files and borrowers' fmancial records and held
 discussions with vendors and appropriate SBA officials. The audit was conducted in
 accordance with Government Auditing Standards. Audit fieldwork was conducted
 between February and April of2000.


                                        Audit Results

 Finding          Undisbursed Funds for a Loan are not needed for Y2K Compliance

         As of April 20, 2000, the borrower had corrected its Y2K problems after having
 received only about $381,000 of the :t Ex,"; jloan proceeds. We determined the
[ Ex, '+ =!. in undisbursed loan funds will not meet the usage criteria set forth for the Y2K
 Loan Program. The lender acknowledged that the remaining funds were no longer
 needed forY2K compliance problems. To bring its computer system into Y2K
 compliance, the borrower engaged a firm to replace its entire computer system prior to
 January I, 2000. Due to problems with the initial contractor, another firm was hired in
 October 1999 to complete the system upgrade. Because of the approaching yearend
 deadline, the second contractor opted to rewrite the system software in lieu of replacing
 the entire system. This work was substantially completed as of January 6, 2000.

         The Act states that a small business concern that receives a loan guaranteed under
  the Act shall only use the proceeds to address the Year 2000 computer problems.
  Further, SBA Procedural Notice 5000-603 states that there can be no mixed use of
  proceeds in a Y2K loan. The Notice also states that if a borrower needs loan proceeds for
  non-Y2K purposes, a separate companion loan must be processed.

  Recommendation:

         We recommend that the District Director, Massachusetts District Office, take the
  following action:
                                                                                      -,
          lA. 	   Require the lender to limit disbursements for loan numbeLE",c, <+ 1to the
                  amount needed for Y2K pwposes as required under the Act.



                                                2
District Office Response

         The District Director stated that she agreed with the conclusions reached in the
report and that she planned to instruct the bank to formally cancel the undisbursed
balance of the loan. In addition, she stated that:
1. 	 she planned to notify the bank of its right to submit a new application for a 7{a) loan
     to fund the non-Y2K related needs of the company, and;
2. 	 ber office will support any request the bank may make for either a refund of the
     excess amount of the guaranty fee paid on the Y2K loan or for application of the                 "
     excess amount to any guaranty fee associated with a new loan to this company.

Evaluation of District Office Response

        The District Director's response is acceptable.




Tbe linding in this report is the conclusion of the OIG's Auditing Division based on testing of the
Auditee's operations. The linding and recommendations are subject to review, management
decision, and corrective action in accordance with existing Agency procedures for follow-up and
resolution. This report may contain proprietary information subject to the provisions of 18 USC
1905 and must not be released to the public or another agency without permission of the Office of
Inspector General.



                                                   3
                                                                                                                 Appendix




                                           Office of Inspector General 

                                           Audit Report Distribution 





Recipient                                                                                          Number of Copies

Associate Deputy Administrator for Capital Access ............................................1 


Associate Administrator for Field Operations ......................................................1 


Associate Administrator for Financial Assistance ................................................1 


Financial Administrative Staff................................................................................1 

 Attention: Jeff Brown

General Counsel .......................................................................................................2 


General Accounting Office ......................................................................................1 

